                        Audit of Incurred Costs for
                             Fiscal Year 2002

                                October 2003

                     Reference Number: 2004-1C-009




  This report has cleared the Treasury Inspector General For Tax Administration
disclosure review process and information determined to be restricted from public
                  release has been redacted from this document.
                                      DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                           October 27, 2003


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE



       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Audit of Incurred Costs for Fiscal Year 2002
                              (Audit #20041C0204)


       The Defense Contract Audit Agency (DCAA) audited the contractor’s compliance with
       requirements described in the Office of Management and Budget (OMB) Circular A-133
       Compliance Supplement that are applicable to its major Federal Government programs.
       The DCAA also audited the contractor’s certified final indirect cost rate proposal and
       related books and records for reimbursement of Fiscal Year 2002 incurred costs. The
       purpose of the audit was to determine the allowability and allocability of direct and
       indirect costs that form the basis for negotiated indirect cost rates for the period ended
       September 30, 2002.
       According to the DCAA, the contractor is a not-for-profit contractor and, therefore, falls
       under OMB Circular A-133, Audits of States, Local Governments, and Non-Profit
       Organizations. The DCAA stated that the contractor complied in all material aspects
       with the requirements that are applicable to its research and development programs.
       The DCAA also indicated the contractor’s indirect rates are acceptable as proposed.
       Additionally, claimed direct costs are provisionally approved pending final acceptance.
       The information in this report should not be used for purposes other than those intended
       without prior consultation with the Treasury Inspector General for Tax Administration
       regarding their applicability.
       If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
       Director, at (202) 927-7077.


       Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
